   U.S. ELECTION ASSISTANCE COMMISSION
        OFFICE OF INSPECTOR GENERAL




                     FINAL REPORT:
 AUDIT OF THE U.S. ELECTION ASSISTANCE COMMISSION’S
       FISCAL YEAR 2008 FINANCIAL STATEMENTS




NO. I-PA-EAC-01-08
NOVEMBER 2008
                           U.S. ELECTION ASSISTANCE COMMISSION
                                    OFFICE OF INSPECTOR GENERAL
                                  1225 New York Ave. NW - Suite 1100
                                        Washington, DC 20005




                                                                      November 17, 2008


To:         The Commission

From:       Inspector General

Subject:    Independent Auditor’s Reports on the U.S. Election Assistance Commission’s
            Financial Statements for Fiscal year 2008 (Assignment No. I-PA-EAC-01-08)

                                   INTRODUCTION

        This memorandum transmits the Independent Auditor’s Report and accompanying
Independent Auditor’s Reports on Compliance and Other Matters and Internal Control
issued by Clifton Gunderson LLP (Clifton Gunderson) on its audit of the U.S. Election
Assistance Commission’s (EAC) financial statements for the fiscal year ending
September 30, 2008. The audit was performed by Clifton Gunderson under a contract
that was monitored by the Office of Inspector General (OIG). The contract required that
the audit be performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and the Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

                                 RESULTS OF AUDIT

        Clifton Gunderson was unable to express an opinion on the EAC’s balance sheet
as of September 30, 2008 and on the related statements of net cost, changes in net
position, and the statement of budgetary resources for the year then ended, because the
EAC was unable to provide sufficient appropriate evidence to allow Clifton Gunderson to
conduct its audit.

        In connection with the audit, EAC’s internal controls over financial reporting and
compliance with certain provisions of applicable laws and regulations were considered.
The audit identified four material weaknesses and one significant deficiency in internal
control, respectively, as follows:

      I. Financial Accounting and Reporting Controls

   II. Lack of Support for Grant Accounting
  III. Weak Funds Control

  IV. Federal Manager’s Financial Integrity Act Compliance and Reporting

   V. Information Technology

        Because the EAC was unable to provide sufficient appropriate evidence to allow
Clifton Gunderson to conduct its audit, Clifton Gunderson was unable to test EAC’s
compliance with laws and regulations.

                           EAC CORRECTIVE ACTIONS

       The report on internal control contains recommendations to address the
weaknesses identified in the report. Management was provided a draft copy of the report
for comment and generally concurred with the findings.

         EVALUATION OF CLIFTON GUNDERSON PERFORMANCE

        To ensure the quality of the audit work performed, the OIG reviewed Clifton
Gunderson’s report and related documentation and inquired of its representatives. The
OIG's review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards (GAGAS), was not intended to enable us to express, and
we do not express, opinions on the EAC's financial statements or internal control or on
the EAC's compliance with laws and regulations. Clifton Gunderson is responsible for the
attached auditor's report dated November 7, 2008 and the conclusions expressed in the
report. However, the OIG review disclosed no instances where Clifton Gunderson did not
comply, in all material respects, with GAGAS.

                              REPORT DISTRIBUTION

         The Inspector General Act of 1978, as amended, requires semiannual reporting to
Congress on all reports issued, actions taken to implement recommendations, and
recommendations that have not been implemented. Therefore, we will include the
information in the attachment in our next semiannual report to Congress. The distribution
of this report is not restricted, and copies are available for public inspection.

        We appreciate the cooperation and assistance of EAC personnel during the audit.
If you or your staff has any questions, please contact me at (202) 566-3125.

Attachments

Cc: Executive Director
    Chief Operating Officer
    Administrative officer
                                 Independent Auditor’s Report


To the Inspector General of the
  Election Assistance Commission

We were engaged to audit the balance sheet and accompanying notes of the Election
Assistance Commission (EAC) as of September 30, 2008, and the related statements of net
cost, changes in net position, and budgetary resources for the year then ended (hereinafter
collectively referred to as financial statements). These financial statements are the responsibility
of the EAC’s management.

EAC’s accounting records are inadequate for us to obtain sufficient appropriate audit evidence
to conduct the audit. As a result, we did not obtain sufficient, appropriate, evidential matter for
applying audit procedures necessary to conduct an audit in accordance with auditing standards
generally accepted in the United States of America and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United states; and applicable provision of the Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

Because of the matter discussed in the preceding paragraph, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the EAC’s financial
statements as of and for the year ended September 30, 2008.

Appendix C of the Technical Amendments to OMB Bulletin No. 07-04 issued on August 25,
2008 is amended to include the EAC as one of the executive agencies in the Accountability for
Tax Dollars Act required to prepare financial statements. Fiscal Year 2008 is the first year EAC
prepared financial statements.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 7, 2008 on our consideration of the EAC’s internal control over financial reporting,
and on our tests of the EAC’s compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are
an integral part of our audit performed in accordance with Government Auditing Standards and
should be considered in assessing the results of our audit.




11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                    1
www.cliftoncpa.com                Offices in 17 states and Washington, DC
The information in the Management’s Discussion and Analysis is not a required part of the
financial statements, but is supplementary information required by accounting principles in the
United States of America. However, we did not audit this information and, accordingly, we
express no opinion on it.

Our audits were made for the purpose of forming an opinion on the basic financial statements
taken as a whole. The information in the Message from the Chairwoman, Performance Section,
and Other Accompanying Information is presented for purposes of additional analysis and is not
required as part of the financial statements. This information has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.




Calverton, Maryland
November 7, 2008




                                               2
             Independent Auditor’s Report on Internal Control over Financial Reporting


To the Inspector General of the
    Election Assistance Commission

We were engaged to audit the financial statements of the Election Assistance Commission
(EAC or Commission) as of and for the year ended September 30, 2008, and have issued our
report dated November 7, 2008. In that report, we disclaimed our opinion on EAC’s financial
statements because we did not obtain sufficient, appropriate, evidential matter for applying audit
procedures necessary to conduct our audit in accordance with auditing standards generally
accepted in the United States of America; and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.

The management of EAC is responsible for establishing and maintaining internal control to
achieve the objectives of effective and efficient operations, and reliable financial reporting. In
planning and performing our audit, we considered EAC’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on
the financial statements and to comply with OMB Bulletin No. 07-04, as amended, but not for
the purpose of expressing an opinion on the effectiveness of EAC’s internal control over
financial reporting. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act (FMFIA) (31 U.S.C. 3512),
such as those controls relevant to ensuring efficient operations. Accordingly, we do not express
an opinion on the effectiveness of EAC’s internal control over financial reporting.

Our consideration of the internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be material weaknesses and a significant deficiency.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity's ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements that is more than inconsequential will not be
prevented or detected by the entity’s internal control. We consider the deficiencies described
below in information technology to be collectively a significant deficiency in internal control over
financial reporting.


11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                    3
www.cliftoncpa.com                  Offices in 17 states and Washington, DC
A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control.

Our consideration of the internal control over financial reporting was for the limited purpose
described in the second paragraph of this section and would not necessarily identify all
deficiencies in the internal control that might be significant deficiencies and, accordingly, would
not necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. However, as discussed below, we also identified certain deficiencies in internal
control over financial reporting that we consider to be material weaknesses.


MATERIAL WEAKNESSES

I.     Financial Accounting and Reporting Controls

       The Accountability of Tax Dollars Act (ATDA) of 2002 extends to EAC a requirement to
       submit to the Congress and the Director of the Office of Management and Budget (OMB)
       audited financial statements. OMB Circular A-136, Financial Reporting Requirements,
       defines the form and content of financial statements to be prepared by the agency. To
       accomplish the objective of complying with the ATDA, the agency is required to develop
       a system to prepare a complete set of financial statements on a timely basis in
       accordance with generally accepted accounting principles. The statements are to result
       from an accounting system that is an integral part of a total financial management
       system containing sufficient structure, effective internal control and reliable data.
       Financial reporting also consists of policies and procedures related to the processing
       and summarizing of accounting entries, and the preparation of financial statements.
       Fiscal Year 2008 is the first year EAC is preparing and submitting audited financial
       statements.

       EAC’s accounting records are inadequate for us to obtain sufficient appropriate audit
       evidence to conduct our audit. Below are detailed descriptions of the control deficiencies
       related to EAC’s financial reporting:

       A. Incomplete Performance and Accountability Report (PAR)

           Reporting information that helps people assess the performance of the
           Government’s programs is an important objective of Federal financial reporting. For
           governmental entities, in contrast to profit-seeking entities, the financial result of
           governmental-type activities is rarely an adequate indicator of performance. To
           adequately assess performance, people need additional information, such as that
           required by OMB Circular A-136, Financial Reporting Requirements.

           OMB Circular A-136 defines the form and content of a Federal agency PAR. The
           PAR contains four sections:

               1.   Management’s Discussion and Analysis (MD&A) (Section 1)
               2.   Performance Section (Section 2)
               3.   Financial Section (Section 3)
               4.   Other Accompanying Information (Section 4)



                                                4
   MD&A (Section 1)
   The MD&A’s Performance Goals, Objectives, and Results section did not have
   performance measures and results (see discussion below related to Performance
   Section). The Analysis of the Entity’s Financial Statements section of the MD&A
   contains insufficient information to help users understand EAC’s financial results,
   position and condition and assist users in assessing whether that financial position
   has improved or deteriorated as a result of the year’s activities. This section does
   little more than restate information already provided elsewhere in the report, and
   does not include a discussion of key financial related measures emphasizing
   financial trends and assess financial operations.

   Performance Section (Section 2)
   EAC was unable to prepare the Performance Section. EAC limited the content of
   this section to the reasons EAC could not present the required detailed information
   and the actions being taken to meet the requirements for fiscal year 2009. According
   to management, EAC is unable to prepare the required performance elements of the
   PAR, because EAC has not finalized a strategic plan or implemented a performance-
   based budget.

   Financial Section (Section 3)
   As mentioned above, we disclaimed our opinion on EAC’s financial statements.

Recommendations:

   1. Establish policies, procedures and mechanisms to comply with the financial
      reporting requirements in OMB Circular A-136.

   2. Finalize a strategic plan, implement a performance based budget and formulate
      useful performance measures to tie to the budget for fiscal year 2009 financial
      statements reporting.


B. Insufficient Resources and Personnel with Appropriate Federal Accounting
   and Reporting Skill Sets

   EAC did not have adequate resources and employees with appropriate skill sets to
   handle financial management accounting and reporting. The financial operations are
   fragmented within the commission that could potentially result in transactions or
   activities not being recorded or not recorded timely in the financial system. There is a
   lack of understanding and clear organizational structure with regards to the
   responsibilities for internal and external financial reporting requirements. This
   deficiency is aggravated by the confusion between the EAC and its accounting
   service provider as to who is responsible for certain activities such as maintaining
   source documents and reviewing the financial information and reports. Moreover,
   EAC employees do not seem to be adequately trained to use the accounting service
   provider’s financial systems to generate reports and schedules that it can use for its
   analysis and for reporting. This deficiency is a key factor in many of the weaknesses
   in financial reporting as described further in this report.

   EAC management advised CG that the financial management organizational
   structure is being reorganized to include management level positions responsible for


                                        5
   overseeing the commission’s financial operations. EAC plans to fill all of these
   positions in Fiscal Year 2009.

   GAO Standards for Internal Control in the Federal Government states “People are
   what make internal control work. The responsibility for good internal controls rests
   with all managers. Management sets the objectives, puts the control mechanisms
   and activities in place, and monitors and evaluates the control. However, all
   personnel in the organization play important roles in making it happen.” Moreover,
   “All personnel need to possess and maintain a level of competence that allows them
   to accomplish their assigned duties, as well as understand the importance of
   developing and implementing good internal control. Management needs to identify
   appropriate knowledge and skills needed for various jobs and provide needed
   training, as well as candid and constructive counseling, and performance appraisals.”

Recommendations:

   3. Evaluate the resources and appropriate skills needed to meet the financial
      operations’ responsibilities and implement the results of the evaluation and the
      recommendations.

   4. Ensure that appropriate training is provided to financial staff on federal
      accounting and reporting, and on the accounting service provider’s financial
      system.

   5. Complete changes being made to EAC’s organizational structure for financial
      management.

   6. Ensure that the memorandum of agreement (MOU) with the accounting service
      provider clearly describes each party’s responsibilities and provides for timely
      assistance to meet EAC’s financial information needs, such as a list of all the
      routine financial reports that it needs periodically.

C. Outstanding Accounting Issues

   Although EAC prepared the September 30, 2008, financial statements, these
   statements continue to reflect most of the deficiencies and exceptions in account
   balances, some listed below, caused by unresolved accounting issues identified
   during our interim review of the June 30, 2008 financial statements. A number of
   these issues are material and significant to the EAC’s financial statements.

   •   Grant advances to states and other entities were misclassified as expense
       (discussed further in Section II of this report).
   •   Requirements payments to states may be misclassified as expense (discussed
       further in Section II of this report).
   •   Federal assistance related liabilities were not accrued (discussed further in
       Section II of this report).
   •   Advances made to a service provider were misclassified as expense (discussed
       further in Section I.G. of this report).
   •   Federal assistance account receivables were not reported (discussed further in
       Section II of this report).


                                       6
   •   Statement of Net Costs (SNC) presentation of program costs. Currently there is
       only one program reported in the SNC. However, the president’s budget showed
       EAC’s with two programs.
   •   Leasehold improvements and bulk purchases were not capitalized; and
   •   Certain liabilities related to goods and services received were not accrued.
   •   Budgetary accounting related to incurred obligations, undelivered orders and
       unobligated appropriations may be incorrect (discussed further in Sections II and
       III of this report).

Recommendation:

   7. In order to prepare reliable financial statements for Fiscal Year 2009, EAC must
      resolve above accounting issues as soon as possible. For complex issues such
      as the accounting for requirements payments, it may need to consult with
      authoritative bodies such as the OMB or the U.S. Treasury.


D. Lack of an Integrated Financial Management System

   EAC utilizes the general ledger and core financial management system (general
   ledger system) of its accounting service provider. The general ledger system is not
   capable of generating most user reports for data analysis on a real time basis. Users
   have to request from the accounting service provider some basic reports which are
   generated by another software application not accessible to EAC. Also, other
   financial management systems used at EAC include the property management
   system and grant database spreadsheets. None of these EAC financial management
   systems are interfaced with the general ledger system.

   OMB Circular No. A-127, Financial Management Systems, requires that each agency
   establish and maintain a single integrated financial management system. Without a
   single integrated financial management system to ensure timely and accurate
   financial data, poor policy decisions may occur due to inaccurate or untimely
   information. Managers are less likely to be able to report accurately to the President,
   Congress, and the public on Government operations in a timely manner. And, scarce
   resources are more likely to be directed toward the collection of information rather
   than to delivery of the intended programs.

   Having a single, integrated financial management system does not necessarily mean
   having only one software application within each agency covering all financial
   management system needs. Also, it does not mean that all information is physically
   located in the same database. Rather, a single, integrated financial management
   system is a unified set of financial systems linked together electronically in an
   efficient and effective manner to provide agency-wide financial system support.
   Integration means that the user is able to have one view into systems such that, at
   whatever level the individual is using the system, he or she can obtain needed
   information efficiently and effectively through electronic means. Interfaces are
   acceptable as long as the supporting detail is maintained and accessible to
   managers. Interface linkages must be electronic unless the number of transactions is
   so small that it is not cost beneficial to automate the interface. Easy reconciliations




                                        7
   between systems, where interface linkages are appropriate, must be maintained to
   ensure data accuracy.

Recommendation:

   8. In conjunction with the recommendation no. 6 related to the service provider’s
      memorandum of agreement, EAC should decide to either interface its standalone
      financial systems with the service provider’s system or to utilize the service
      provider’s subsystems, if available.


E. Ineffective Financial Statement Preparation

   EAC was not ready for a financial statements audit in fiscal year 2008. It does not
   have policies and procedures related to the financial reporting which will include
   periodic (at least quarterly) financial statements preparation, review and submission.
   Its financial system is not able to provide financial information in a timely and useful
   manner. This is one of the many reasons why EAC was not able to meet agreed-
   upon milestone dates, provide schedules and reports timely, provide complete
   responses to audit requests, and produce auditable financial statements. This
   inability to provide adequate accounting schedules and reports were pervasive and
   prohibited us from completing our audit.

   Pursuant to OMB A-136, Financial Reporting Requirements, preparation of the
   annual financial statements is the responsibility of the agency’s management. In
   carrying out this responsibility, each agency chief financial officer (CFO) should
   prepare a policy bulletin or guidance memorandum that guides the agency’s fiscal
   and management personnel in the preparation of the annual financial statements.
   The existence of written procedures will provide structure and accountability for the
   financial statement preparation and review processes. They also help ensure
   activities are carried out in accordance with management directives. EAC did not
   have a comprehensive policy bulletin or guidance memorandum to this effect.

Recommendation:

   9. Develop and implement policy and procedures for the financial reporting process
      and responsibilities including preparation of the financial statements. The
      procedures should include, among others, financial statements review process
      and submission/completion milestones. Internal milestones should be
      established and updated annually as part of the financial statement preparation
      process.

F. Lack of Reconciliation and Analysis

   A major objective of internal control is to ensure the integrity of the underlying
   accounting data supporting the financial statements. An important control in this
   regard is the reconciliation of EAC accounting data. An adequate reconciliation
   provides the assurance that processed transactions are properly and timely recorded
   in the accounting records and financial statements, which then allows management
   the ability to analyze its financial condition and results of operations on a routine
   basis.


                                        8
  Account analysis and reconciliations for accounts such as Fund Balance with
  Treasury (FBWT), Accounts Payable, Undelivered Orders, Unfunded Leave and
  Accrued Funded Payroll and Benefits were not performed periodically by EAC.
  Reconciliations that were performed were in response to our audit request (June
  2008 FBWT) or only during the fourth quarter of the fiscal year (Undelivered Orders)
  due to limited resources. As a result, several journal entries prepared as part of a
  general account “clean-up” for the year-end were identified and posted. Regular
  financial statements preparation and analysis on a monthly or quarterly basis may
  eliminate the need for adjustments during the year-end closing process and reduce
  the risk that material errors or irregularities in the financial statements will not be
  detected and resolved.

  For example, to perform the UDO reconciliation the individual UDO balances in the
  general ledger system are downloaded to a spreadsheet application. Finance office
  personnel then queried the subsidiary system for each obligation reported in the
  general ledger system download. Corrective actions to resolve variances between
  the two systems were denoted in the general ledger system download. Our audit
  revealed the following deficiencies related to this process:

     •   The process is manually intensive and time consuming increasing the risk of
         error;
     •   The reconciliation is not fully documented. Most notable exclusion is the
         subsidiary balance to the general ledger balance reconciliation is not
         documented;
     •   Control is not properly designed to ensure obligations are recorded in the
         general ledger; and
     •   Accounting records for grant obligations are maintained by the program
         offices. A separate and less detailed process is performed to reconcile grant
         UDO balances. This process oftentimes required considerable time and effort
         by both the finance office and program office to determine the validity of the
         balances recorded in general ledger system.

  An agency’s ability to achieve its control objectives is highly dependent on the
  nature and extent of its control activities. Control activities include the policies,
  procedures, techniques and mechanisms in place to help ensure these
  objectives are met. Our audit revealed management had not established controls
  over its financial operations or controls in placed were not properly designed or
  effective in meeting the agency’s control objectives.

Recommendations:

  10. Prepare and analyze monthly reconciliations of subsidiary and summary
      accounts balances. Consider a “formal closing” of all accounts at an interim dates
      which will reduce the level of accounting activity and analysis required at year-
      end. This “formal interim closing” entails ensuring that all transactions are
      recorded in the proper period through the month-end.

  11. Evaluate the most efficient way of obtaining financial data from the general
      ledger system or the service provider.



                                        9
         12. Ensure that supervisory reviews are applied to the monthly reconciliations and its
             supporting documents are maintained and reviews documented.

      G. Accounting Error

         EAC hires a service provider to act as the contracting officer for certain EAC
         contracts. Budget authority to fund these contracts and the service provider’s fee are
         advanced to the service provider prior to the award of the contract and/or completion
         of work by the contractor. The advance is recorded as expenditure in the accounting
         system.

         SFFAS No. 1 requires agencies to record advance payments as an asset. Due to
         timing constraints and limited resources, EAC was unable to resolve the error prior to
         issuing the financial statements as of September 30, 2008.

      Recommendations:

         13. Analyze all contracts and prepare correcting entries.

         14. Ensure that the accounting entries for this type of transactions are recorded
             in accordance with United States Standard General Ledger requirements.


II.   Lack of Support for Grant Accounting

      Grant transactions may not be recorded in accordance with generally accepted
      accounting principles.

      Grant Programs
      EAC controls were not properly designed to prevent or detect the incorrect accounting
      treatment applied to grants payments. Since inception EAC has administered several
      grant programs. EAC authorizes its service provider to disburse amounts awarded to
      grant recipients by way of a transmittal memorandum. Attached to the memorandum is
      the SF 270 Request for Advance or Reimbursement form denoting whether the
      disbursement is for reimbursement of claimed costs or an advance. However, the
      service provider’s policy is to record all payments in the accounting system as grant
      expense without regard to whether the payment was for cost reimbursement or an
      advance. The service provider explained that this policy was adopted because the
      transmittal does not indicate the nature of the payment and the SF 270 form was
      deemed an unreliable source for this information. EAC became aware of the error during
      the audit process. EAC has identified one payment for $2 million that is misclassified in
      the FY 2008 financial statements. However, EAC must perform additional analysis to
      determine the full amount the financial statements are misstated.

      HAVA Section 101, 102 and 251 Payments to the States
      The Help America Voters Act (HAVA) authorized EAC to disburse approximately $3
      billion in payments to States for Federal election administration improvements. During
      2003 and 2004, the U.S. General Services Administration (on behalf of EAC) sent the
      following payments to the states.



                                             10
       a. Section 101 ($349,182,262) – Payments to states for activities to improve the
          administration of elections
       b. Section 102 ($300,317,738) – Payments to states for replacement of punch
          card and lever voting machines.
       c. Section 251 ($2,319,360,617) – Requirement payments to the states

Congress authorized an additional $115 million in Section 251 funds to be disbursed to
the states through the Consolidated Appropriations Act, 2008. Approximately $2.3 million
of these payments were disbursed as of September 30, 2008. These payments to the
states are oftentimes made in advance of the recipient incurring any costs. EAC records
these payments as grant expenditures in the accounting system at the time of
disbursements.

As of September 30, 2008, there were still outstanding issues as follows:
   • Unused funds from the disbursements made to the states in 2003 and 2004 that
       have not been expended by the states.
   • Section 102 payments require the states to return payments made by EAC if
       replacement of punch card and lever voting machines were not made within an
       established period of time. EAC has not determined all the states that would be
       required to return the funds and the amounts to be returned.
   • Results from the Office of Inspector General’s HAVA audits may require the
       states to return funds to the general fund of the U.S. Treasury. EAC does not
       have policies and procedures to guide the treatment of these types of
       transactions.

We requested from EAC a position paper to support the grant accounting treatment, but
did not receive the requested documentation.

SFFAS No. 1, Accounting for Selected Assets and Liabilities, paragraph 57 states that
“Advances are cash outlays made by a federal entity to its employees, contractors,
grantees, or others to cover a part or all of the recipients’ anticipated expenses or as
advance payments for the cost of goods and services the entity acquires. Examples
include travel advances disbursed to employees prior to business trips, and cash or
other assets disbursed under a contract, grant, or cooperative agreement before
services or goods are provided by the contractor or grantee.” Paragraph 59 states,
“Advances and prepayments should be recorded as assets”. EAC did not provide
sufficient evidential matter to support their accounting treatment.

SFFAS No. 1, paragraph 41 states that “A receivable should be recognized when a
federal entity establishes a claim to cash or other assets against other entities, either
based on legal provisions, such as payment due date, or goods or services provided.”
   .
Recommendations:

   15. Consult with OMB and/or U.S. Treasury on to the appropriate accounting for the
       Section 251 requirements payments. Prepare a position paper to document the
       authoritative decisions to support the accounting treatment.

   16. Develop procedures for the return of the Section 102 funds from the States. The
       procedures should include determining States that are required to return the
       funds, the amounts to be returned, and the process to obtain the funds. Also,


                                       11
               ensure that the accounting for these funds is properly recorded and supported by
               adequate documentation.

           17. Develop policies and procedures for the funds identified by the Office of
               Inspector General audits.


III.   Weak Funds Control

       EAC does not have adequate funds control to monitor expenditures to ensure
       compliance with Anti-Deficiency Act and Purpose Statute. The following matters illustrate
       the weakness in the funds control that potentially violates Anti-Deficiency Act and the
       Purpose Statute:

       •   In Fiscal Year 2008, there were instances where EAC obtained goods and services
           without creating an obligation in their accounting system, and awarded contract
           where funds were not initially available. EAC deobligated other existing obligations
           recorded in the accounting system to pay for invoices that were received for the
           procurement and to obligate the contract awarded. Due to non-receipt of
           documentation from EAC, we were unable to perform sufficient testing to satisfy
           ourselves that the deobligations were not made to bona-fide obligations of the
           Commisssion.

       •   An analysis of the transactions charged against the Election Reform Payments
           (ERP) fund (TFS 95 X 1651) revealed potential non-compliance with the Anti-
           Deficiency Act and Purpose Statute violation. EAC’s analysis of these and other
           transactions charged to the agency’s funds is on-going. We were unable to perform
           sufficient testing procedures to determine whether or not any actual violations of the
           Act had occurred. Following are some of the issues related to the on-going analysis
           being made by EAC. We were notified of other issues, which are not clear at the time
           of this report, that are still being investigated.

           o   Mock Election grants for $198,820 were disbursed from the fund based on
               language in the conference report. Appropriation law did not authorize payments.

           o   Poll Worker grants for $627,000 were disbursed from the fund based on
               language in the conference report. Appropriation law did not authorize grant.

           o   EAC operating costs for $512,654 were disbursed from the ERP fund when
               Salaries and Expense fund should have been charged. Preliminary analyses
               performed by EAC indicate there is not enough fund available to charge the
               Salaries and Expense fund.

       Recommendations:

           18. Establish and implement policy and procedures for funds control.

           19. Resolve the potential Anti-Deficiency Act and Purpose Statute violation
               issues as soon as possible. EAC may need to reconstruct the transactions in
               order to determine proper accounting and use of the funds.



                                               12
IV.   Federal Managers’ Financial Integrity Act Compliance and Reporting

      As required by OMB Bulletin No. 07-04, as amended, we compared the material
      weaknesses disclosed during the audit with those material weaknesses reported in the
      EAC’s FMFIA report that relate to the financial statements. Although EAC reported the
      material weaknesses and significant deficiency identified in this report, EAC does not
      have a process in place to assess its internal control. EAC has not performed a risk
      assessment. The EAC’s management assurance statement under the FMFIA
      acknowledged the need to perform internal control assessment in accordance with OMB
      Circular No. A-123, Management’s Responsibility for Internal Control. We consider the
      failure to perform internal control assessment a material weakness.

                             ********************************

                                  SIGNIFICANT DEFICIENCY

V.    Information Technology

      The Federal Information System Controls Audit Manual (FISCAM), issued by the
      Government Accountability Office (GAO), formed the basis of our review, and was
      supplemented by the OMB Circular Nos. A-127 and A-130, the National Institute of
      Standards and Technology (NIST) Special Publication (SP) 800-53, Federal Information
      Processing Standards (FIPS) PUBs, and applicable EAC policies.

      A. Entity-Wide Security Program

         Effective information security management is critical to EAC’s ability to ensure the
         confidentiality, integrity, and availability of its information assets, and thus its ability to
         perform its mission. If effective information security practices are not in place, EAC’s
         data and systems are at risk of inadvertent or deliberate misuse, fraud, improper
         disclosure, or destruction—possibly without detection.

         An entity-wide security management program should be in place to establish a
         framework and continuing cycle of activity to manage security risk, develop security
         policies, assign responsibilities, and monitor the adequacy of computer security
         related controls. It should also represent the foundation for an entity’s security control
         structure and a reflection of senior management’s commitment to addressing
         security risks. OMB Circular No. A-130, Appendix III Security of Federal Automated
         Information Resources, requires agencies to implement and maintain a program to
         assure that adequate security is provided for all agency information collected,
         processed, transmitted, stored, or disseminated in general support systems and
         major applications.

         Weaknesses that currently exist in EAC’s information security program include the
         following:

         •   Although per the terms of the Memorandum of Understanding (MOU) between
             EAC and the service provider, the service provider procedures will prevail where
             there are no guiding policies provided by the EAC organization. EAC has not
             internally developed and adopted an agency-wide information security program


                                                 13
      in compliance with Federal Information Systems Management Act (FISMA) which
      includes the following:
      o Periodic assessments of risk, including the magnitude of harm that could
          result from the unauthorized access, use, disclosure, disruption, modification,
          or destruction of information and information systems that support the
          operations and assets of the agency;
      o Policies and procedures that are based on risk assessments, to cost-
          effectively reduce information security risks to an acceptable level, and
          ensure that information security is addressed throughout the life cycle of each
          agency information system;
      o Subordinate plans for providing adequate information security for networks,
          facilities, information systems, or groups of information systems, as
          appropriate;
      o Periodic testing and evaluation of the effectiveness of information security
          policies, procedures, practices, and security controls to be performed with a
          frequency depending on risk, but no less than annually;
      o A process for planning, implementing, evaluating, and documenting remedial
          actions to address any deficiencies in the information security policies,
          procedures, and practices of the agency;
      o Procedures for detecting, reporting, and responding to security incidents; and
      o Plans and procedures to ensure continuity of operations for information
          systems that support the operations and assets of the agency.

  •   EAC does not have an inventory of all the systems/applications used by the
      service provider to support the operations of EAC. The service provider utilizes a
      suite of applications for the various services it provides EAC, such as the
      Comprehensive Human Resources Information System (CHRIS) for Human
      Resources (HR) management and Pegasys®, a commercial-off- the-shelf
      product for financial management and reporting.

  •   EAC has not implemented a security management structure with adequate
      independence, authority, and expertise which is assigned in writing. However,
      EAC has authorized an on site IT specialist to work with the service provider to
      address information security issues.

  •   EAC has not performed Certification and Accreditation (C&A) of its general
      support systems. The EAC Local Area Network (LAN) is supported by the service
      provider and the EAC Website is supported by a contracted company.

  •   EAC does not monitor results of independent third party information security
      examinations and inspections of the service provider for inclusion within the
      service provider’s Plan of Actions and Milestones (POA&M).

Recommendations:

  20. Develop and implement information system policies and procedures to meet
      compliance with OMB Circular No. A-130, NIST special Publication 800-18
      and FISMA requirements and guidelines.




                                      14
   21. Request and review a copy of the service provider systems review rotation
       plan, noting which EAC support systems are covered. For fiscal years where
       EAC systems are not covered, EAC should obtain access from the service
       provider to review these systems to comply with FISMA Section 3544.

   22. Assign responsibility for the security management function to an individual
       with the oversight responsibility and authority over the security management
       structure. The individual should have the expertise and independence to
       enforce security policies.

   23. Continue with ongoing efforts and complete a certification and accreditation,
       risk assessment, security plan and system test and evaluation of EAC’s
       general support systems.

   24. Obtain, review and follow up on identified security weaknesses within (1) the
       service provider’s POA&M (2) the Statement of Auditing Standards (SAS) 70
       review of the Heartland Finance Center; (3) the service provider’s OIG's 2008
       FISMA Report and (4) any other security-related reviews it may have
       performed on EAC support systems.

B. Contingency Plan

   Losing the capability to process and protect information maintained on EAC’s
   computer systems can significantly impact EAC’s ability to accomplish its mission to
   serve the public. The purpose of service continuity controls is to ensure that, when
   unexpected events occur, critical operations continue without significant interruption
   or are promptly resumed.

   To achieve this objective, EAC should have procedures in place to protect
   information resources and minimize the risk of unplanned interruptions and a plan to
   recover critical operations should interruptions occur. These plans should consider
   activities performed at EAC’s general support facilities (e.g. EAC’s Local Area
   Network (LAN), Wide Area Network (WAN), and telecommunications facilities), as
   well as the activities performed by users of specific applications. To determine
   whether the disaster recovery plans will work as intended, EAC should establish and
   periodically test the capability to perform its functions in disaster simulation
   exercises. EAC should develop and structure disaster recovery plans and continuity
   of operation plans in accordance with Homeland Security Presidential Directive
   (HSPD) 7, 51 and 20 and Federal Continuity Directive (FCD) 1, and NIST SP 800-
   34, Contingency Planning Guide for Information Technology Systems.

   Our review of EAC’s service continuity controls identified deficiencies that could
   affect EAC’s ability to respond to a disruption in business operations as a result of a
   disaster or other long-term emergency. Although in case of a disaster, EAC would
   defer to the service provider’s contingency plan (for service provider hosted
   systems). EAC has not developed a Continuity of Operations Plan (COOP), Disaster
   Recovery Plan (DRP) or Business Impact Assessment (BIA).




                                       15
       Recommendation:

          25. Develop EAC’s own COOP, DRP, and BIA which maps to applicable service
              provider’s plans and consider implementing the recovery of non-service
              provider supported systems, business processes, personnel and interfaces.


                                 ********************************

These deficiencies in internal control may adversely affect any decision by management that is
based, in whole or in part, on information that is inaccurate because of the deficiencies.
Unaudited financial information reported by EAC, including budget information, also may contain
misstatements resulting from these deficiencies.

EAC management’s response to the material weaknesses and significant deficiency identified in
our report is included as Attachment to this report. We did not audit EAC’s response and,
accordingly, we express no opinion on it.

In addition to the material weaknesses and significant deficiency described above, we noted
certain matters involving internal control and its operation that we reported to management of
EAC in a separate letter dated November 7, 2008.

This report is intended solely for the information and use of the management of EAC, EAC
Office of Inspector General, OMB, the Government Accountability Office and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




Calverton, Maryland
November 7, 2008




                                               16
                 Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General of the
 Election Assistance Commission

We were engaged to audit the balance sheet and accompanying notes of the Election
Assistance Commission (EAC) as of September 30, 2008, and the related statements of net
cost, changes in net position, and budgetary resources for the year then ended (hereinafter
collectively referred to as financial statements) and have issued our report thereon dated
November 7, 2008. In that report, we disclaimed our opinion on EAC’s financial statements
because we did not obtain sufficient, appropriate evidential matter for applying audit procedures
necessary to conduct our audit in accordance with auditing standards generally accepted in the
United States of America; and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended.

The management of EAC is responsible for complying with laws and regulations, and
government-wide policies applicable to EAC. We were unable to test EAC’s compliance with
laws and regulations, and government-wide policies because of limitations on the scope of our
work as explained above. Providing an opinion on compliance with certain provisions of laws
and regulations, and government-wide policies was not an objective of our audit, and,
accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of EAC, EAC
Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




Calverton, Maryland
November 7, 2008




11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                  17
www.cliftoncpa.com                 Offices in 17 states and Washington, DC
     Attachment




18
                                                                                    Attachment




EAC estimates that a realistic target for producing a PAR in full compliance with
Federal requirements is FY2010.

Two months ago, the EAC launched a search for a CFO who is a certified public
accountant with Federal government experience to immediately implement these
corrective actions However, EAC's ability to recruit a CFO is impaired by the
current salary cap ($139,600) in the Help America Vote Act.

I assure you that our top priority is the establishment of strict and transparent
financial controls. Our response to each audit recommendation is presented in
the attachment to this memorandum. Please contact me if you have any
questions about our reply.

Attachment




                                       19
                                                                                                                                                                                                                                Attachment

   U.S. ELECTION ASSISTANCE COMMISSION RESPONSE TO RECOMMENDATIONS IN
                     THE DRAFT INTERNAL CONTROL REPORT


    Reference/ReC9 mm enClation                                                      Actions                                                Milestones                 Respcmsible Official

                                                                            MATERIAL WEAKNESS
                                                                                    -,~~~~=~~




 I. Financial Accounting and Reporting Controls
·,~~~.~,_~_~  _ _ _ _ ~ '_ _ _ _ _ ~ _ p ~             ._ft.__
                                          _ _• _ _ _ _ _         ~~   •._._"____     ____
                                                                                   ~ ~         ~_._~__   ''-_~._'~   __'__''''_'___   '_'''''~",'_   .....___
~~:_In~!~!~.f~r!grmance and Accountabilit.~ R~.egtt P~J3L____..___ «._._.•_ ..
                                                                                                                                                                ..                          ~L~·'~.~~~·~'_==~="'~"'·~~~_~~




 1. Establish policies, procedures                     This recommendation encompasses
 and mechanisms to comply with the                     other recommendations made in the
 financial reporting requirements in                   auditor's internal control report.
 OMS Circular A-136.                                   Specifically, recommendations 3, 4, 5,
                                                       6,7,8,9,10,11,12, and 18.
                                                       Therefore, see responses to those
-~-_.~=---_.~~-~~
                                                       recommendations••    ~._.~_       =~=




• _ _
    • _ _ ••r_~




 2. Finalize a strategic plan,                         The strategic plan will be finalized by                                             07/31/09                  Executive Director
 implement a performance based                         December 31 , 2008. However,
 budget and formulate useful                           because of the budget cycles, EAC will
 performance measures to tie to the                    not implement performance-based
 budget for fiscal year 2009 financial                 budgeting until the 2010 budget.
 statement reporti..'J.9'                                         ~~-
                                                                                                                             -- _._.-

__...._.______...___..___.__._._.. __.________.__..__._.. ,.. . . ._._ _,.___._.___.._=r_,.__.. ,.. __,.. _.. .___.. . . ._....,.. . .,...__..
_.. B. Insufficient Resources and Pet:.!!t?!!.!!.~.'!'!H!!.!oppropriateFederal Acco~!!.~!.t:'..9...Ii~~.!li~~~.==._.~=~._... .":.

 3. Evaluate resources and                             A chief financial officer (CFO) will be                                             01/30109                  Executive Director
 appropriate skills needed to meet                     recruited and placed in charge of
 the financial operations                              financial management and reporting.
 responsibilities and implement the                    The CFO will be authorized to
 results of the evaluation and the                     determine staffing needs, assess skill
 recommendations                                       sets, and make staffing adjustments as
                                                       necessary. The milestone date is for
                                                       hirinQ a CFO onJy.

 4. Ensure that appropriate training                   The CFO will determine staff training
                                                                                                                                             ---_._----.. LCFO
                                                                                                                                           03/30109
                                                                                                                                                            .                                                                                                                     .   -
 is provided to financial staff on                     needs after organizing the new Division
 federal accounting and reporting,                     of Management Services. Individual
 and on the accounting service                         annual training plans will be
.provider's financial system.                          established.
f-.---.---------------~ f----~-------~---.                                                          --
  5. Complete changes being made                A new organization structure for the        01/16/09             Executive Director
  to EAC's organizational structure for EAC is under consideration and will be
_fi.':I_anl?'§J,J:!lanag.el1]~nt. ____.______ lJ2L~.se!:!tedl.~the COI1J!)1J.~~!.~.,____. _<__   __,,_._ _ _., .___                           ,_.~".M
                                                                                                                                                                                                                                                                            . ___ __
                                                                                                                                                                        '
                                                                                                                                                                            ~
                                                                                                                                                                                m
                                                                                                                                                                                    _
                                                                                                                                                                                        .
                                                                                                                                                                                            _
                                                                                                                                                                                                ~
                                                                                                                                                                                                    ~
                                                                                                                                                                                                        '
                                                                                                                                                                                                            _
                                                                                                                                                                                                                ~
                                                                                                                                                                                                                    ~
                                                                                                                                                                                                                        .
                                                                                                                                                                                                                            _
                                                                                                                                                                                                                                .
                                                                                                                                                                                                                                    _
                                                                                                                                                                                                                                        ~
                                                                                                                                                                                                                                            ~
                                                                                                                                                                                                                                                _
                                                                                                                                                                                                                                                    ~
                                                                                                                                                                                                                                                        ·
                                                                                                                                                                                                                                                            .
                                                                                                                                                                                                                                                                _
                                                                                                                                                                                                                                                                    ~
                                                                                                                                                                                                                                                                        ·
                                                                                                                                                                                                                                                                              ~
 6. Ensure that the memorandum of
 agreement (MOU) with the
                                                           Applicable MOU's covering accounting
                                                           services and information technology
                                                                                                                                           03/30109             -I CFO
 accounting service provider clearly                       security responsibilities; and defining
 describes each party's                                    roles and responsibilities of EAC and
 responsibilities and provides for                         GSA staff will be negotiated. If                                                                     I
 timely assistance to meet EAC's                           appropriate, a single MOU will be put in
 financial information needs, such as                      place~ However, completion of the
 a list of all the routine financial                       agreement (s) will be delayed until a
 reports that it needs periodically.                       new CFO is hired and assesses the
                                                           capability of GSA to provide all
                                                           necessary financial management
                                                           services. (See recommendation no. 8).
                                                           In the meantime, EAC will develop




                                                                                               20
21
22
23
24
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
